CERTIFICATE OF SERVICE
NO. TBD
Lloyd Allan Jones
Petitioner,
v.
U.S. Bank, N.A., as Trustee for Residential Asset Securities Corporation, Home Equity Mortgage
Asset-Backed, Pass-through Certificates, Series 2006-EMX9, and America's Servicing Company
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the LLOYD
ALLAN JONES PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by Fedex 2-Day, prepaid for deliveryto the following address.
Steven J. Adams
Stevens & Lee
111 North Sixth Street
Reading, PA 19601
(610) 478-2133
sja@stevenslee.com
Counsel for U.S. Bank, N.A., Et Al.

Lucas DeDeus

January 25, 2021
SCP Tracking: -530 Main Street-Cover White

